Audit
Report
 DEVELOPMENT OF THE DEFENSE FINANCE AND ACCOUNTING SERVICE
         CORPORATE DATABASE AND OTHER FINANCIAL
                   MANAGEMENT SYSTEMS


Report No. D-2002-014                      November 7, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.


  Suggestions for Audits

  To suggest ideas for or to request audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704


  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
ASD(C3I)              Assistant Secretary of Defense (Command, Control,
                         Communications, and Intelligence)
DCD                   Defense Finance and Accounting Service Corporate Database
DCII                  Defense Finance and Accounting Service Corporate Information
                         Infrastructure
DFAS                  Defense Finance and Accounting Service
ERP                   Enterprise Resource Planning
FMIP                  Financial Management Improvement Plan
GAFS                  General Accounting and Finance System
GAO                   General Accounting Office
OMB                   Office of Management and Budget
USD (Comptroller)     Under Secretary of Defense (Comptroller)
                       Office of the Inspector General, DoD
Report No. D-2002-014                                                 November 7, 2001
 (Project No. D2000FG-0051.001)

      Development of the Defense Finance and Accounting Service
              Corporate Database and Other Financial
                        Management Systems

                                  Executive Summary

Introduction. This audit is the second in a series of reports on the Defense Finance
and Accounting Service Corporate Database (DCD). We conducted the audit in
support of the Chief Financial Officers Act. This report addresses the impact of the
development of DCD on other financial management systems. The immediate goal of
DCD is to provide managers with standardized data and near real-time assessments of
finance and accounting activities. The ultimate goal is to facilitate the processing and
sharing of financial and accounting data using standard processes. Additionally,
minimal changes to existing financial management and feeder systems would be made
until standard systems are developed. DCD costs to date are $31.7 million, and
life-cycle costs are estimated to reach $209.1 million through FY 2007.

Objectives. The overall audit objective was to review the development of DCD and its
impact on entitlement, disbursing, and accounting functions. Because the Defense
Finance and Accounting Service intended DCD to standardize financial data and
minimize changes to existing financial management and feeder systems, we reviewed
the development of DCD and other financial management systems. The review of the
management control program will be covered in a future report. See Appendix A for a
discussion of the scope, methodology, and prior audit coverage.

Results. DoD financial management systems are not integrated and cannot share data
without expensive and inefficient crosswalks. Crosswalks translate information so that
systems with different data formats can communicate and share information. However,
DoD continues to develop DCD and other financial management systems, which will
not establish an integrated financial management system. Specifically,

     • The Defense Logistics Agency stated its $1 billion supply chain management
       system could not work with DCD and other standard systems.

     • The Army and Navy did not determine whether their $975 million financial
       management systems could work with DCD and other standard systems.

     • The Defense Finance and Accounting Service Denver personnel want to
       develop a $16 million Air Force-specific financial management system to
       replace DCD.

As a result, DoD Components are spending more than $2 billion to develop systems
with no assurance that the financial portions of the systems will function as an
integrated financial management system. Also, the lack of an integrated financial
management system may prolong DoD’s inability to develop auditable financial
statements. For details of the audit results, see the Finding section of the report.

Summary of Recommendations. We recommend that the Financial Management
Executive Steering Committee conduct family of system reviews on critical financial
management systems. We also recommend that the Financial Management Executive
Steering Committee establish a plan to minimize the development of nonstandard
financial management systems until an enterprise architecture is established. We
recommend that the Defense Finance and Accounting Service include all accounting
system options in its accounting analysis of alternatives.

Management Comments. The Secretary of Defense is committed to modernizing and
improving the Department’s financial management processes and systems and therefore
has established a Financial Management Modernization Program. The Secretary of
Defense signed a memorandum on July 19, 2001, establishing a Program Management
Office to manage and oversee the program; directed the Military Secretaries and
Directors of the Defense agencies to be accountable to the Secretary for their business
operations and financial management systems; and directed the Comptroller to be
responsible for the financial management reforms. Actions that have been initiated for
the modernization program include:

       •   funding has been allocated for the modernization program in FY 2002;

       •   a task force has been established;

       •   a request for information from the private sector regarding the development
           of a DoD financial management enterprise architecture, and current
           enterprise resource planning initiatives must be approved by the Comptroller
           before proceeding beyond prototype.

In addition, the task force is in the process of initiating a contract to benchmark
modernization efforts; establishing a Financial Management Executive Steering
Committee; analyzing ongoing and planned financial management initiatives with the
goal of curtailing high risk efforts that may not conform to the enterprise architecture;
and developing an “as-is” inventory financial and feeder systems to accurately reflect
the current systems environment. A discussion of management comments is in the
Finding section and the entire text of management comments can be found in the
Management Comments section of the report.

Audit Response. The Under Secretary of Defense (Comptroller) comments were
coordinated with the Defense Finance and Accounting Service and were partially
responsive. We recognize that the Under Secretary of Defense (Comptroller) has taken
initiatives to modernize and improve the Department’s financial management processes
and systems. However, the comments did not address an action-based plan with
proposed milestones on conducting family of system reviews, how the Department will
minimize the development of nonstandard systems until an enterprise architecture is
established, and a plan of action for including the impact of enterprise resource
planning initiatives in the DoD accounting analysis of alternatives. If the Under
Secretary of Defense (Comptroller) continues coordination with the Defense Finance
and Accounting Service on Recommendation 3, then the Defense Finance and
Accounting Services does not need to provide separate comments to the final report.
We request that the Under Secretary of Defense (Comptroller) provide additional
comments on this report by January 8, 2002, addressing an action-based plan with
proposed milestones.
                                             ii
Table of Contents

Executive Summary                                                        i

Introduction
     Background                                                         1
     Objectives                                                         3

Finding
     DoD Efforts to Develop an Integrated Financial Management System   4

Appendixes
     A. Audit Process
         Scope                                                          15
         Methodology                                                    15
         Prior Coverage                                                 16
     B. Report Distribution                                             17

Management Comments

     Under Secretary of Defense (Comptroller)                           19
Background
           This audit was conducted in support of financial statement audits:

                •   required by Public Law 101-576, the Chief Financial Officers Act of
                    1990, November 15, 1990; and

                •   amended by Public Laws 103-356 and 104-208, the Federal Financial
                    Management Act of 1994, October 13, 1994, and the Federal Financial
                    Management Improvement Act of 1996, September 30, 1996,
                    respectively.

           This report is the second in a series related to the Defense Finance and
           Accounting Service Corporate Database (DCD) and discusses the development
           of DCD and other financial management systems.

           Congress and the General Accounting Office (GAO) have cited concerns with
           DoD financial management. In addition, DoD must comply with several
           statutory requirements, including Office of Management and Budget (OMB)
           Circular No. A-127, “Financial Management Systems,” July 23, 1993, which
           requires each DoD agency to establish an integrated financial management
           system.

           Congressional Concerns with DoD Financial Management. The House
           Appropriations Committee reported in the DoD Appropriations Bill for FY 2000
           that the Committee was disappointed with the current level of DoD oversight of
           its information technology systems. According to the report, DoD information
           technology projects have tended to overrun budgets, slip schedules, evade data
           standardization and interoperability requirements, and shortchange user needs.

           General Accounting Office Concerns with DoD Financial Management. In
           GAO Testimony 99-93, “Defense Information Management: Continuing
           Implementation Challenges Highlight the Need for Improvement,” February 25,
           1999, GAO expressed concerns about the state of DoD financial management
           systems. GAO stated that DoD faces a number of serious management
           challenges, including a lack of effective management and oversight controls,
           technical and data standardization, and measuring performance.

           In GAO Report No. GAO-01-525, “Information Technology Architecture
           Needed to Guide Modernization of DoD’s Financial Operations,” May 17,
           2001, GAO states that DoD did not have a financial management enterprise
           architecture.1 The report further stated that DoD is spending billions of dollars
           on new systems that were not based on an integrated enterprise architecture.
           Without an overall architecture, the Department runs the risk of having
           processes and systems that are duplicative, not interoperable, and costly to
           maintain and interface.



1
    An enterprise architecture can be viewed as a blueprint for building interoperable systems within an
    enterprise.



                                                      1
           Office of Management and Budget Financial Management System
           Guidance. OMB Circular No. A-127 prescribes policies and standards for
           Federal agencies to follow in developing and operating financial management
           systems. Each agency must establish and maintain an integrated financial
           management system that complies with accounting principles, internal control
           standards, and applicable OMB and U.S. Treasury requirements. The Circular
           defines an integrated financial management system as a unified set of financial
           and feeder systems2 that are planned for and managed together, operated in an
           integrated fashion, and linked together electronically to provide agency-wide
           financial system support.

           Implementation of DoD Financial Improvements. The Under Secretary of
           Defense (USD) (Comptroller), the Defense Finance and Accounting Service
           (DFAS), and the Assistant Secretary of Defense (Command, Control,
           Communications, and Intelligence) (ASD[C3I]) share responsibility for
           implementing financial improvements. The USD (Comptroller) and DFAS are
           responsible for developing and maintaining finance and accounting systems, and
           the ASD(C3I) is responsible for providing oversight on the acquisition of
           automated information systems.

                  USD (Comptroller) Responsibilities. DoD Directive 5118.3, “Under
           Secretary of Defense (Comptroller) Chief Financial Officer, Department of
           Defense,” January 6, 1997, requires the USD (Comptroller) to develop and
           maintain an integrated DoD accounting and financial management system.

                   DFAS Responsibilities. DoD Directive 5118.5, “Defense Finance and
           Accounting Service,” November 26, 1990, established DFAS as a Defense
           agency under the USD (Comptroller). Under this Directive, DoD requires
           DFAS to direct consolidation, standardization, and integration of DoD finance
           and accounting requirements, functions, procedures, operations, and systems.
           The Directive requires DoD Components to comply with DFAS direction.
           However, the Directive also states that the Components must maintain control of
           their accounting and finance resources (feeder systems).

                  ASD(C3I) Responsibilities. DoD Directive 5137.1, “Assistant Secretary
           of Defense for Command, Control, Communications, and Intelligence,”
           February 12, 1992, requires that the ASD(C3I) establish and implement
           information management policy, processes, programs, and standards to govern
           the development, acquisition, and operation of DoD automated information
           systems. DoD Directive 8320.1, “DoD Data Administration,” September 26,
           1991, gives the ASD(C3I) responsibility for DoD data administration. That
           Directive requires ASD(C3I) to ensure that data administration is implemented
           aggressively in ways that provide clear, concise, consistent, and easily
           accessible data DoD-wide. DoD Instruction 5000.2, “Operation of the Defense
           Acquisition System,” October 23, 2000, requires DoD to conduct integrated
           program reviews on a family of systems basis to support cost-effectiveness and
           interoperability, and to assess the spending of limited resources.


2
    In DoD, feeder systems are usually Component-owned information systems where most financial
    transactions occur. The transactions are transferred to the appropriate DoD accounting and finance
    systems.



                                                      2
Objectives
     The overall audit objective was to review the development of the DCD and its
     impact on entitlement, disbursing, and accounting functions. Because DFAS
     intended DCD to standardize financial data and minimize changes to existing
     financial management and feeder systems, we reviewed the development of
     DCD and other financial management systems. The review of the management
     control program will be covered in a future report. See Appendix A for a
     discussion of the scope, methodology, and prior audit coverage.




                                       3
                    DoD Efforts to Develop an Integrated
                    Financial Management System
                    DoD financial management systems are not integrated3 and cannot share
                    data without expensive and inefficient crosswalks. 4 However, DoD
                    continues to develop DCD and other financial management systems,
                    which will not establish an integrated financial management system.
                    DoD has not integrated its financial management systems because of the
                    following.

                        •   DoD did not have an effective Component-wide oversight and
                            review process.

                        •   A plan to address and implement interoperability in financial
                            management systems was not established.

                        •   The accounting analysis of alternatives did not address the
                            development of redundant accounting systems.

                    As a result, DoD Components are spending more than $2 billion to
                    develop systems with no assurance that the current disparate financial
                    management systems will function as an integrated financial management
                    system. Also, the lack of an integrated financial management system
                    may prolong DoD’s inability to develop auditable financial statements.

DoD Financial Management
           DoD Financial Management Improvement Goal. The USD (Comptroller)
           developed the DoD Financial Management Improvement Plan (FMIP) to
           establish the integrated financial management system OMB requires. The FMIP
           provides a technical infrastructure model to accomplish this goal. The technical
           infrastructure model indicates that an integrated financial management system
           can be developed if the systems share:

               •    data elements,

               •    business rules, and

               •    the Standard Fiscal Code5 (a single DoD line of accounting).



3
    For this report the terms integrated and interoperable are synonymous.
4
    Crosswalks translate information so that systems with different data formats can communicate and share
    information.
5
    The USD (Comptroller) directed the development of the Standard Fiscal Code as the DoD single line of
    accounting, which would translate DoD transactions into the U.S. Standard General Ledger format to
    produce auditable financial statements.



                                                      4
           DFAS Information Infrastructure. DFAS developed the DFAS Corporate
           Information Infrastructure (DCII) to meet OMB Circular No. A-127
           requirements. The DCII implements the technical infrastructure model and
           consolidates finance and accounting into a single, integrated financial
           management system. The DCII is an integrated collection of procedures,
           policies, and standards that provides centralized management, analysis, and
           reporting of data; information security; and data transfer and translation
           capabilities. DCD is the major system in the DCII. When implemented, DCD
           will make accounting and finance information available to many users and
           applications at the same time. Approximately 80 percent of the data in DCD
           will originate from feeder systems, and the remainder will originate from DFAS
           systems. The DCD will eliminate storage of multiple instances of data as well
           as the inefficiencies and reconciliation processes that can result when data are
           passed back and forth between applications.

Establishing Financial Management Systems
           Developing Financial Management Systems. DoD continues to develop DCD
           and other nonintegrated financial management systems that cannot share data
           without expensive and inefficient crosswalks. Specifically:

               •    DFAS is developing the DCD;

               •    DFAS has proposed a DCD alternative for the Air Force because of
                    delays in DCD development and the failure of Air Force transactions to
                    pass DCD edits; and

               •    Army, Navy, and the Defense Logistics Agency are purchasing
                    enterprise resource planning (ERP)6 software programs to replace feeder
                    systems. 7 The ERPs have functionality similar to DCD.

           Current Status of DoD Financial Systems. The FY 2000 FMIP states that
           DoD developed and implemented financial management systems before
           legislative requirements were established in the 1990s. As a result, current
           financial management systems cannot share data without the use of crosswalks.
           DFAS personnel stated that these crosswalks are inefficient and expensive.
           Further, DFAS personnel stated that the DoD failure to share data:

               •    denies DoD financial managers the ability to obtain and use timely and
                    accurate financial information, and

               •    contributes to the DoD inability to prepare auditable financial statements.

           For example, DFAS personnel stated that managers cannot make timely
           business decisions because it took a month to crosswalk management

6
    An ERP program is commercial business software designed to integrate the business functions of an
    organization.
7
    Feeder systems contain 80 percent of DoD financial data and are crucial to the overall DoD efforts to
    enhance financial management and to eventually obtain favorable audit opinions on the DoD annual
    financial statements.



                                                      5
           information from various systems. DFAS plans to give managers daily updates
           through DCD to solve this problem. DFAS also crosswalks data from feeder
           systems to develop financial statements; however, when auditors try to find the
           source data, the audit trail is lost. The audit trail is lost because crosswalks
           were developed to convert data but not to identify the source of the data. DCD
           was to provide traceable crosswalks to solve this problem.

           DCD Use Prior to Developing Standard Finance and Feeder Systems. DCD
           development began in May 1999 and is to be completed in 2007. DFAS
           initiated DCD development to improve financial management by providing
           managers with near real-time assessments of finance and accounting data.
           DFAS planned to accomplish this by standardizing data to enable systems to
           routinely share and transfer information and to produce auditable financial
           statements. The DCD would crosswalk input from nonstandard finance and
           feeder systems into a standard format while standard systems were being
           developed. In the interim period, DFAS personnel would centrally manage and
           maintain the crosswalks to minimize changes to existing finance and feeder
           systems.

                   Revised DCD Initiative. In February 2001, the DCD development
           policy changed. DFAS personnel stated they would crosswalk accounting
           system data, 400,000 items , into DCD but would not crosswalk feeder system
           data because the costs were prohibitive. DCD crosswalk costs were estimated
           to be $42 million or 20 percent of the $209.1 million DCD development cost.
           As a result, DCD would only receive summary data from the feeder systems
           through the accounting systems. Further, individual feeder system transactions
           will not be subject to edits to establish the reliability of the information. DCD
           would remain the hub of the end-to-end procurement process.8

           DFAS Denver Initiative. DFAS intended DCD to be the single DoD corporate
           database where financial managers could develop reports and prepare auditable
           financial statements. DFAS also intended the General Accounting and Finance
           System (GAFS) to be reengineered as the first DCII compliant accounting
           system. It would integrate GAFS and DCD. However, in March 2001,
           DFAS Denver personnel stated the Air Force needed a financial management
           system independent of DCD. DFAS Denver personnel stated this was necessary
           because of:

               •   delays in DCD development, and

               •   the failure of Air Force transactions to pass DCD crosswalk edits.

                  GAFS Rehosted. The proposed Air Force financial management system
           would be named GAFS Rehosted. GAFS Rehosted would integrate the
           functionality of the GAFS with the Central Procurement Accounting System,
           along with the U.S. Standard General Ledger and some edit capability. The

8
    The DoD end-to-end procurement process will be the means to pay vendors and contractors. The DCD
    will control the flow of information. Other systems in the end-to-end procurement process include the
    Wide Area Workflow, Standard Procurement System, Defense Procurement Payment System, Central
    Contractor Registry, and Defense Standard Disbursing System.



                                                     6
           estimated development cost is $16 million. This system would create an
           Air Force-specific financial management system and database. The system
           would be capable of providing Air Force financial managers with timely and
           accurate information needed to conduct Air Force business and to develop
           auditable financial statements.

                  GAFS Rehosted and DCD. GAFS Rehosted would compete with
           DCD. The Director, DFAS Denver, stated that the implementation of GAFS
           Rehosted will eliminate the need for DCD except for the end-to-end
           procurement process. The system does not foster integration because it would
           use nonstandard data elements from existing systems.

           Feeder System Replacement Initiatives. The Army, Navy, and Defense
           Logistics Agency initiated efforts to improve the capabilities of their feeder
           systems through the purchase of ERPs. DFAS stated ERPs can:

               •   improve Component financial management,

               •   provide information for auditable financial statements,

               •   replace Component feeder systems, and

               •   evolve into Component financial management and accounting systems.

                   Cost of Feeder System Replacements. We conducted a limited review
           of the ERPs which have an estimated cost of $2 billion.

               •   The Army stated that the Wholesale Logistics Modernization Program is
                   an attempt to outsource the Army logistics function. The cost of the
                   contract will include any system the contractor deems necessary. The
                   contract price is approximately $560 million.

               •   The Navy estimates costs to implement Project Cabrillo at $415 million.
                   Project Cabrillo will be the financial management system for the Space
                   and Naval Warfare Systems Command.

               •   The Defense Logistics Agency estimates the Business Systems
                   Modernization program life-cycle costs at $1 billion. The Business
                   Systems Modernization program will be the Defense Logistics Agency
                   integrated supply chain management system.

                   Feeder System Replacements and the DCD. Because of the ERPs, the
           Army, Navy, and the Defense Logistics Agency would not need DCD for
           financial management. However, there is no assurance that the ERPs will form
           a DoD integrated financial management system because the ERPs do not share
           common data elements. DFAS personnel stated that the ERPs needed to share
           common data elements so that “stovepipe” 9 systems were not developed.



9
    Stovepipe systems are designed for the use of the developer. The system design has no requirement to
    share data with business partners.



                                                     7
            ERP Program Budget Decision. In January 2001, the
    USD (Comptroller) issued Program Budget Decision 426 requiring DoD
    agencies to detail how ERP programs will integrate and work with standard
    systems. Standard systems are end-to-end procurement systems such as DCD
    and the Standard Procurement System. The Defense Logistics Agency response
    indicated that the Business System Modernization program and standard systems
    were not compatible. Specifically, the Defense Logistics Agency stated that use
    of the DCD and other standard systems would eliminate many of the ERP
    benefits. The Army had not responded and the Navy response did not indicate
    what effect its ERPs would have on standard systems.

    Summary of DoD Financial Management Systems. DoD is developing
    financial management systems at a cost of more than $2 billion. However, these
    systems are not being developed in accordance with OMB Circular No. A-127
    and the FMIP. The Circular defines an integrated system as a group of systems
    that are planned for and managed together, operated in an integrated fashion,
    and linked together electronically to provide agency-wide financial system
    support. DoD did not effectively plan and manage these systems together. As a
    result, the systems tend to create autonomous rather than integrated financial
    management systems.

Oversight of Financial Management Systems
    DCD and other financial management system developments will not create an
    integrated financial management system because:

            •   DoD did not have an effective Component-wide oversight and
                review process,

            •   a plan to address and implement interoperability in financial
                management systems was not established, and

            •   the accounting analysis of alternatives did not address the
                development of redundant accounting systems.

    Current Financial System Oversight and Review. DoD did not have an
    effective Component-wide oversight and review process. DoD
    Instruction 5000.2 requires DoD to conduct integrated program reviews on a
    family of systems basis to support cost-effectiveness, interoperability, and to
    assess the spending of limited resources. In Inspector General, DoD, Report
    No. D-2001-030, “Oversight of the Defense Finance and Accounting Service
    Corporate Database Development,” December 28, 2000, the ASD(C3I) agreed
    to coordinate with the USD (Comptroller) to conduct family of systems reviews
    that support the finance business area. However, the ASD(C3I) has not
    conducted reviews with the USD (Comptroller) to determine the impact the
    ERPs will have on interoperability. The reviews did not occur because the
    ASD(C3I) lacks the authority to control financial management system
    investments.

            USD (Comptroller) Proposed Action. USD (Comptroller) personnel
    stated that the Senior Financial Management Oversight Council (the Council)


                                        8
could provide the oversight and review necessary to develop an integrated
financial management system. The Council was created in January 2001 to
provide oversight and guidance on systems compliance issues. According to
USD (Comptroller) personnel, this Council has been renamed as the Financial
Management Executive Steering Committee and will essentially assume
additional responsibilities as a result of the July 19, 2001, Secretary of Defense
memorandum that established the Financial Management Modernization
Program. The Committee is chaired by the USD (Comptroller) and includes
the Defense Under Secretaries; ASD(C3I); Service financial managers; Director,
Defense Logistics Agency; and Director, DFAS. As a result of the July 19,
2001, memorandum, the USD (Comptroller) has initiated the following actions
to start the modernization program:

       •   redirected funding in the Department’s FY 2001 budget and allocated
           specific FY 2002 funding for the modernization program;

       •   instituted and staffed a Financial Management Modernization Task
           Force;

       •   published a request for information regarding the development of a
           DoD financial management enterprise architecture;

       •   directed that current ERP initiatives be approved by the
           USD (Comptroller) before proceeding beyond prototype, to ensure
           that they are consistent with the Department’s modernization efforts;
           and

       •   developed a program management organizational structure.

Furthermore, the Financial Management Modernization Task Force is in the
process of initiating a contract request to benchmark other enterprises that have
undertaken similar modernization efforts. The Task Force is also analyzing
ongoing and planned financial management systems initiatives to curtail high
risk efforts that may not conform to the future enterprise architecture or an
integrated financial management structure, and developing a Department-wide
“as-is” inventory of financial and feeder systems to reflect the current systems
environment. On August 21, 2001, the USD (Comptroller) issued a
memorandum on the “Deployment of Financial Management Enterprise
Resource Planning Systems.” The USD (Comptroller) stated that all current
ERP initiatives could continue up to prototype evaluation, but that the ERP
could not be deployed without the explicit written concurrence of the
USD (Comptroller). The USD (Comptroller) in conjunction with the ASD(C3I)
should direct that the renamed Council assist in conducting the family of system
reviews and to consider the review results in the decision process.

Addressing Interoperability. DoD does not have a plan to address
interoperability in financial management systems. Interoperability is the ability
of systems to provide and accept services from other systems and use the
services to operate effectively together, as an integrated financial management
system. In May 2001, GAO stated that DoD financial management systems
were not interoperable because DoD did not have an enterprise architecture or
the management structure in place to effectively develop and implement one.
An enterprise architecture:


                                    9
        •   describes enterprise operations in both logical and technical terms,

        •   provides operational and technical views for the current and target
            environment, and

        •   provides an information technology investment plan for managing
            the current and target environment.

Enterprise Architecture Program Budget Decision. The USD (Comptroller)
agreed with the GAO and issued Program Budget Decision 818 in June 2001 to
address the issue. Program Budget Decision 818 provided DFAS with
$100 million in FY 2002 to:

        •   develop an enterprise architecture,

        •   define and implement standard data requirements,

        •   document the flow of financial data, and

        •   develop a financial and feeder system compliance process.

        Additional funding would be assessed as part of the FY 2003 budget
process. The USD (Comptroller) response is a positive step. However, the
Program Budget Decision does not provide a plan to address the interoperability
of current systems in development. DoD has an estimated $2 billion in current
financial management system developments that will not create interoperable
systems. For example, DFAS noted the following ERP limitations.

        •   ERP developments are not coordinated.

        •   ERP developments do not share common data elements with other
            DoD financial management systems.

        •   ERP developments are not part of an overall DoD plan to develop
            an integrated financial management system.

       Further, USD (Comptroller) personnel stated that it should take a year to
develop an enterprise architecture. Therefore, the USD (Comptroller) needs to
develop and implement a plan, through the renamed Council, to minimize the
Component development of nonstandard systems. Until DFAS develops an
enterprise architecture, DoD cannot be sure that current information technology
funds are being put to the best use.

Developing the DoD Accounting Analysis of Alternatives. In Inspector
General, DoD, Report No. D-2000-151, “Acquisition of the Defense Joint
Accounting System,” June 16, 2000, we recommended that DFAS prepare an
analysis of alternatives to justify its investment in proposed DoD accounting
systems. An analysis of alternatives:

        •   provides a complete and supportable presentation that identifies the
            advantages and disadvantages of alternative systems,



                                   10
             •   analyzes the sensitivity of alternatives to changes,

             •   describes the commonality and interoperability of alternative
                 systems,

             •   defines the benefits of the systems, and

             •   addresses system requirements.

     Because the ERPs have accounting modules, the USD (Comptroller) should
     require DFAS to include the ERPs in the analysis of alternatives to prevent the
     development of duplicative accounting systems. DFAS stated that it would
     include the proposed Air Force financial management system because it would
     be a DFAS program. DFAS will not consider the Component ERPs because
     they are being developed outside of DFAS. Although DFAS does not control
     ERP development, the absence of ERP data makes the DFAS analysis
     incomplete and misleading. Therefore, the USD (Comptroller) should require
     DFAS to perform a complete analysis, to include the ERPs. Further, the
     Financial Management Executive Steering Committee should review the analysis
     as part of the oversight process.

     Friedman Report. The Secretary of Defense contracted with the Institute of
     Defense Analyses to conduct a study and recommend a strategy for financial
     improvements within DoD. The study resulted in the report “Transforming
     Department of Defense Financial Management, a Strategy for Change,”
     April 13, 2001, also known as the Friedman Report. The report indicated that
     many positive projects are underway within DoD; however, those projects are
     narrow in focus, have insufficient leadership, and are not part of an overall
     integrated DoD-wide strategy. The report recommended a structural change
     within the financial framework to develop standard integrated systems.

Effect of Present Oversight on Financial System Development
     DoD is developing the DCD and other financial management systems without a
     plan to establish an integrated financial management system. As a result, DoD
     Components are spending an estimated $2 billion to develop disparate financial
     management systems. Further, DoD has no assurance that these systems will
     establish an integrated financial management system. The financial management
     system developments do not address the interoperability and data standardization
     concerns of Congress, GAO, and the Inspector General, DoD. Also, the lack of
     an integrated financial management system may prolong DoD’s inability to
     develop auditable financial statements.

     Financial Management Improvement Plan Goals. The FMIP stated that DoD
     is developing financial management systems to solve current financial problems.
     These developments would result in an integrated financial management system.
     An integrated financial management system would provide timely management
     information and produce auditable financial statements. The FMIP also stated
     that standard data would be used to produce cost-effective financial management
     systems. However, the ERPs are not required to use standard data. The ERPs
     are based on commercial data structures, which are not standard.



                                         11
    Without a DoD-wide review of this process, DoD will create several
    independent financial management systems rather than an integrated system.

    Auditable Financial Statements. Developing auditable financial statements is a
    DoD priority. The FMIP states an integrated system is necessary for the
    development of auditable financial statements. Because these financial
    management systems are not integrated, it is unlikely that auditable financial
    statements would be forthcoming.

Summary
    Individual Components have made efforts to solve their financial management
    problems. However, each Component cannot solve DoD problems
    independently and without a plan. As a result, current DoD financial
    management system developments are not coordinated and will not lead to the
    establishment of an integrated financial management system. The USD
    (Comptroller) issued Program Budget Decisions 426 and 818 to address these
    problems. The Financial Management Executive Steering Committee needs to
    take the following steps to ensure that an integrated financial management
    system is developed and completed to meet the intent of the Program Budget
    Decisions.

            •   Conduct the family of system reviews.

            •   Develop a plan to minimize the development of nonstandard
                financial management systems until an enterprise architecture is
                established.

    DFAS needs to include all accounting system options, including the ERPs, in its
    accounting analysis of alternatives to ensure that duplicative accounting systems
    are not developed. Overall, the USD (Comptroller) agreed with many of the
    points in the draft report. The draft report did not acknowledge that the
    Department had recognized the need for more comprehensive oversight of its
    financial systems as evidenced by the Secretary of Defense memorandum of
    July 19, 2001, because the draft report was issued on July 2, 2001.

Recommendations, Management Comments, and Audit
  Response
    Revised Recommendations. As a result of management comments, we revised
    draft Recommendations 1. and 2. to recognize the change in name of the Senior
    Financial Management Oversight Council to the Financial Management
    Executive Steering Committee.

    We recommend that:

    1.     The Financial Management Executive Steering Committee conduct
    the family of system reviews on critical financial management systems. The
    reviews should ensure that the investment in financial management systems


                                       12
leads to the development of an integrated financial management system.
The Financial Management Executive Steering Committee should consider
the review results in its decision process. The Under Secretary of Defense
(Comptroller) response should include a specific plan of action with
proposed milestones.

Management Comments. On July 19, 2001, the Secretary of Defense issued a
memorandum establishing a Financial Management Modernization Program and
directed the Under Secretary of Defense (Comptroller) be responsible for the
overall direction of the Department’s financial management reforms. As part of
the modernization program, the Under Secretary of Defense (Comptroller) is in
the process of establishing a Financial Management Executive Steering
Committee to provide direction and support to the program. Furthermore, the
Under Secretary of Defense (Comptroller) has directed that current enterprise
resource planning initiatives be approved by their office before proceeding
beyond prototype to ensure that these initiatives are consistent with the
Department’s modernization efforts to achieve an integrated financial
management structure.

Audit Response. Comments from the Under Secretary of Defense
(Comptroller) were partially responsive. The Comptroller agreed with many of
the points raised by the draft report. However, the comments do not address
whether the Financial Management Executive Steering Committee will conduct
family of system reviews on critical financial management systems and provide
a plan with milestones for conducting these reviews. Therefore, we request that
the Under Secretary of Defense (Comptroller) provide additional comments that
detail a specific plan of action with milestones for including family of system
reviews by the Financial Management Executive Steering Committee.

2.     The Financial Management Executive Steering Committee develop
and implement a plan to minimize DoD Component development of
nonstandard systems until an enterprise architecture is established. The
Under Secretary of Defense (Comptroller) response should include a specific
plan of action with proposed milestones.

Management Comments. The Under Secretary of Defense (Comptroller) has
directed that current enterprise resource planning initiatives be approved before
proceeding beyond prototype to ensure that these efforts are consistent with the
Department’s modernization efforts. The modernization program includes
analyzing ongoing and planned financial management systems initiatives across
the Department to curtail high risk efforts that may not conform to the enterprise
architecture or an integrated financial management structure.

Audit Response. Comments from the Under Secretary of Defense
(Comptroller) were partially responsive. Although the Comptroller has initiated
a task force to identify ongoing and planned financial management system
initiatives, the comments do not address whether a plan is to be developed on
how the Department will minimize development of nonstandard systems until an
enterprise architecture is established. Therefore, we request the Under
Secretary of Defense (Comptroller) provide additional comments that detail a
plan of action with proposed milestones.




                                    13
3.     The Director, Defense Finance and Accounting Service, include the
impact of the enterprise resource planning programs in the DoD accounting
analysis of alternatives. The Defense Finance and Accounting Service
response should include a specific plan of action with dates.

Management Comments. The Defense Finance and Accounting Service
coordinated with the Under Secretary of Defense (Comptroller) in response to
the draft report. However, the comments do not address whether current
enterprise resource planning initiatives within the Department are included in
the DoD accounting analysis of alternatives that the Defense Finance and
Accounting Service is developing.

Audit Response. Comments from the Under Secretary of Defense
(Comptroller) were not responsive. Therefore, we request that the Under
Secretary of Defense (Comptroller) provide additional comments that detail an
action-based plan with milestones for including the impact of enterprise resource
planning initiatives in the DoD accounting analysis of alternatives. If the Under
Secretary of Defense (Comptroller) continues coordination with the Defense
Finance and Accounting service on this recommendation, then the Defense
Finance and Accounting service does not need to provide separate comments to
the final report.




                                   14
Appendix A. Audit Process

Scope
    The overall audit objective was to review the development of the DCD and its
    impact on entitlement, disbursing, and accounting functions. This report is the
    second in a series related to DCD. Because the development of DCD was
    intended to standardize financial data and minimize changes to existing financial
    and financial feeder systems, we reviewed the development of DCD and other
    financial management systems.

    Work Performed. We reviewed the responsibilities of DoD data administrators
    and the development of the DCD. In addition, we reviewed the DFAS Standard
    Fiscal Code and standard business rules. We also reviewed the FMIP and ERP
    initiatives within DoD.

    The methodology of the review included analyses of documentation for data
    standardization and interoperability, standard business rules, and the Standard
    Fiscal Code. We reviewed documents dated September 1991 through
    October 2001. As part of the review, we identified $209.1 million in potential
    DCD life-cycle cost through FY 2007. We also interviewed personnel at
    ASD(C3I), DFAS, the Defense Information Systems Agency, and
    Functional/Component Data Administrators throughout DoD at the Army,
    Navy, Air Force, and U.S. Transportation Command.

    General Accounting Office High-Risk Area. The GAO has identified several
    high-risk areas in the DoD. This report provides coverage of the Defense
    Financial Management and Defense Infrastructure high-risk areas.

Methodology
    Use of Computer-Processed Data. We did not use computer-processed data in
    this audit.

    Audit Type, Dates, and Standards. We performed this program audit from
    August 2000 through June 2001 in accordance with generally accepted
    Government auditing standards except that we were unable to obtain an opinion
    on our system of quality control. The most recent external quality control
    review was withdrawn on March 15, 2001, and we will undergo a new review.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within the DoD. Further details are available upon request.




                                       15
Prior Coverage
    General Accounting Office
    GAO Report No. GAO-01-525, “Information Technology Architecture Needed
    to Guide Modernization of DoD’s Financial Operations,” May 17, 2001

    Inspector General, DoD
    Inspector General, DoD, Report No. D-2001-030, “Oversight of Defense
    Finance and Accounting Service Corporate Database Development,”
    December 28, 2000

    Inspector General, DoD, Report No. D-2000-151, “Acquisition of the Defense
    Joint Accounting System,” June 16, 2000

    The GAO and the Inspector General, DoD, have conducted multiple reviews
    related to data standardization and standard business rules issues. The GAO
    reports can be accessed on the Internet at http://www.gao.gov. The Inspector
    General, DoD reports can be accessed on the Internet at
    http://www.dodig.osd.mil/audit/reports.




                                      16
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Command, Control, Communications, and Intelligence)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force


Defense Organization
Director, Defense Finance and Accounting Service

Non-Defense Federal Organization
Office of Management and Budget
Office of Information and Regulatory Affairs

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services


                                          17
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member (cont’d)

House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         18
Office of the Under Secretary of Defense
(Comptroller) Comments




                       19
20
Audit Team Members

   The Finance and Accounting Directorate, Office of the Assistant Inspector
   General for Auditing, DoD, prepared this report. Personnel of the Office of the
   Inspector General, DoD, who contributed to the report are listed below.


   Paul J. Granetto
   Richard B. Bird
   Kimberley A. Caprio
   Kathryn M. Truex
   Eric Lewis
   Jacqueline Wicecarver
   Charlene Grondine
   Cynthia Keller
   Lisa C. Rose-Pressley
